No. _19A1032________________
________________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
________________________________________
FRIENDS OF DANNY DEVITO, KATHY GREGORY, B&J
LAUNDRY, LLC, BLUEBERRY HILL PUBLIC GOLF
COURSE & LOUNGE, and CALEDONIA LAND COMPANY,
Petitioners
v.
TOM WOLF, GOVERNOR AND RACHEL LEVINE,
SECRETARY OF PA. DEPARTMENT OF HEALTH,
Respondents
_______________________________________________________________________
PETITION FOR WRIT OF CERTIORARI
TO THE PENNSYLVANIA SUPREME COURT
________________________________________________________________________
SUPPLEMENTAL BRIEF IN SUPPORT OF APPLICATION TO STAY
THE ENFORCEMENT OF GOVERNOR WOLF’S EXECUTIVE
ORDER DATED MARCH 19, 2020 PENDING THE FILING AND
DISPOSITION BY THE UNITED STATES SUPREME COURT OF
PETITIONERS’ PETITION FOR WRIT OF CERTIORARI
________________________________________________________________________
AND NOW, come the Petitioners, by and through their attorney, Marc A.
Scaringi, pursuant to Rule 15 (8) of the United States Supreme Court, who
respectfully file this Supplemental Brief as follows:
1.

Since the filing of the Application there have been substantial

developments in this matter that are material and relevant.
2.

First, on May 1, 2020, the Governor announced the “reopening” of

twenty-four counties in the northwest and northcentral regions of the state, moving
them from red, meaning non-life sustaining businesses remain closed, to yellow,

1

meaning some restrictions on work and social interaction will cease, beginning at
12:01 a.m., Friday, May 8, 2020 (hereinafter the “Announcement”).1 The
Announcement references the Governor’s full plan to reopen Pennsylvania
(hereinafter the “Plan”).2
3.

However, neither the Announcement nor the Plan reopens the entity

and businesses of Petitioners Friends of Danny DeVito, Kathy Gregory or the
Declarants, who are identified in paragraph 11 below; they are all still deemed to be
non-life-sustaining and are located in the red zone.
4.

Further, neither the Announcement nor the Plan provides a date when

said Petitioners, Declarants or any business or entity on the non-life-sustaining List
and located in Pennsylvania’s remaining forty-three “red” counties will be permitted
to reopen.
5.

The Announcement and the Plan reveal the Executive Order was not

reasonably necessary to achieve its purpose, as it is required to be pursuant to
Lawton v. Steele, 152 U.S. 133 (1894), and thus violates the constitutional rights of
Petitioners, Declarants, et al.
a.

In his Announcement, the Governor claims his reopening of

twenty-four counties is based upon a “balancing [of] economic benefits and
public health risks…” However, no such balancing test was employed in the
Governor’s Executive Order.3 A review of the Executive Order and the

1

https://www.governor.pa.gov/newsroom/gov-wolf-announces-reopening-of-24-counties-beginning-may-8/
https://www.governor.pa.gov/process-to-reopen-pennsylvania/
3
https://www.governor.pa.gov/wp-content/uploads/2020/03/20200319-TWW-COVID-19-business-closureorder.pdf
2

2

pleadings in this case reveals the Governor did not consider the economic
effects of his Executive Order.
b.

The Announcement and Plan are based upon a county-by-county

or regional approach to the reopening, based upon the Governor’s selected
data pertaining to each respective county. However, no such county-bycounty or regional approach was employed in the Governor’s Executive
Order.
c.

In the Governor’s Plan, he states, “Just as the administration

took a measured, county-by-county approach to the Stay at Home order
before expanding the order statewide, it will do the same to ease restrictions
and reopen the state.” (emphasis added). However, the Governor did not
employ “a measured, county-by-county approach” in his Executive Order. The
fact that the Governor touts his “measured, county-by-county approach” to
the Stay-At-Home order, when he did not do the same with his Executive
Order, is a glaring admission.
d.

In his Announcement, the Governor states that, “The

administration partnered with Carnegie Mellon University (CMU) to create a
Risk-Based Decision Support Tool that enables decision makers to strike a
balance between maximizing the results of our economy while
minimizing public health risks.” (emphasis added). However, the
Executive Order did not even attempt to strike a balance between
maximizing the results of our economy while minimizing public health risks.

3

The Governor did keep certain industries he deemed “life-sustaining” open
but that was, according to the Governor, because those industries sustain life
during a pandemic; it was not because that was the way to “maximize[e] the
results of our economy.”
e.

In his Announcement, the Governor stated, “If we see an

outbreak occur in one of the communities that has been moved to yellow,
we will need to take swift action, and revert to the red category until the new
case count falls again.” (emphasis added). However, the Executive Order did
not employ a community-based approach; it ordered the closure of all
businesses in the state deemed to be non-life-sustaining.
6.

On April 27, 2020, so that Pennsylvanians could “maintain positive

physical and mental health,” the Governor announced the opening of certain
recreational activities, including golf courses and thus Petitioner Blueberry Hill
Public Golf Course & Lounge, on May 1, 2020, provided they employ COVID-19
precautions.4 However, Pennsylvanians’ need to maintain positive physical and
mental health existed from March 19, 2020 through May 1, 2020 as well, and
Petitioner Blueberry Hill argued in its initial and subsequent filings that it was
ready, willing and able to employ COVID-19 precautions if permitted to reopen.
Thus, there was no reason for Petitioner to be on the non-life-sustaining List, to
have its waiver not approved when it was finally permitted to reopen over a month

4

https://www.governor.pa.gov/newsroom/governor-announces-may-1-statewide-reopening-of-limited-outdoorrecreational-activities-to-help-pennsylvanians-maintain-positive-physical-mental-health/

4

and a half later with the COVID-19 precautions that it was ready, willing and able
to incorporate in its business from the beginning.
7.

Second, on April 30, 2020, the Auditor General of Pennsylvania

announced that he will audit how the Department of Community and Economic
Development (DCED) managed the waiver process set up by the Governor, stating,
“Some business owners complained that the department’s waiver process was too
slow and not transparent enough.”5
8.

Third, actual evidence, not the projections used to form the basis of the

Governor’s orders, reveals that lockdown orders like the Executive Order and StayAt-Home order are doing more harm than good. Professor Johan Giesecke, one of
the world’s most senior epidemiologists, an advisor to the Swedish government, the
first Chief Scientist of the European Centre for Disease Prevention and Control, and
an advisor to the director general of the World Health Organization, has opined
that:
a.

lockdown policies are not evidence-based;

b.

the models used to support the lockdowns are a dubious basis for

public policy;
c.

the flattening of the curve is due to the most vulnerable dying

first as much as the lockdown;
d.

COVID-19 is a “mild disease” and similar to the flu;

5

https://www.paauditor.gov/press-releases/auditor-general-depasquale-to-audit-state-s-handling-of-covid-19business-shutdown-waivers

5

e.

the mortality rate will be much lower than the projected

numbers because most people who get the disease will never even notice they
were infected;
f.

it was the novelty of the disease that scared people and made

political leaders want to look strong and decisive by ordering lockdowns; and
g.

the correct policy would have been to protect the elderly and the

infirm and to allow the disease to have spread through the population so that
herd immunity can work to build the immunity of healthy Pennsylvanians.6
9.

According to Professor Michael Levitt, Professor of Structural Biology

at the Stanford School of Medicine, and winner of the 2013 Nobel Prize for
Chemistry for “the development of multiscale models for complex chemical
systems,” the indiscriminate lockdown measures are “a huge mistake;” he advocates
a “smart lockdown” policy, focused on more effective measures, focused on
protecting elderly people; and he is unconvinced that the explanation for flattening
the curve is the result of social distancing and lockdowns. He believes the “herd
immunity” is the right approach and states, “There is no doubt in my mind, that
when we come to look back on this, the damage done by lockdown will exceed any
saving of lives by a huge factor.”7
10.

Fourth, on April 29, 2020, the Pennsylvania Department of Health

reported that over sixty-five percent of the COVID-19 deaths have occurred in

6

https://www.aier.org/article/lockdown-free-sweden-had-it-right-says-world-health-organization-interview-withprof-johan-giesecke/
7
https://unherd.com/thepost/nobel-prize-winning-scientist-the-covid-19-epidemic-was-never-exponential/

6

Pennsylvania’s nursing homes.8 This is where the risk of serious illness and death
is. This is where the Respondents, who are statutorily obligated to regulate these
homes, should have employed COVID-19 prevention and mitigation efforts using
their statutory powers under the Disease Act, not the indiscriminate and mass
closure of tens of thousands of businesses, which included Petitioners where no
outbreak or even one infection or death was reported at their businesses and
entities.
11.

Furthermore, not just the Petitioners will suffer irreparable harm if

the Executive Order is not stayed, but all Pennsylvania businesses on the non-lifesustaining List will also, including the businesses owned by Stephen Cassel,
Nichole Missino, John Williams, Karen Myers, and Kraig Nace (herein the
“Declarants”), whose statements are incorporated herein by reference made a part
hereto, attached and marked as Exhibits A, B, C, D, and E respectively.
12.

In considering a request for a stay/preliminary injunction, this Court

utilizes a four-factor test:
As a matter of equitable discretion, a preliminary injunction does not follow
as a matter of course from a plaintiff’s showing of a likelihood of success on
the merits. [citation omitted] Rather, a court must also consider whether the
movant has shown that he is likely to suffer irreparable harm in the absence
of preliminary relief, that the balance of equities tips in his favor, and that an
injunction is in the public interest.
Benisek v. Lamone, 138 S. Ct. 1942, 1943, 201 L.Ed.2d 398, 399 (2018) (citing
Winter v. Natural Resources Defense Council, Inc., 555 U. S. 7, 20, 24, 32, 129 S. Ct.
365, 172 L. Ed. 2d 249 (2008).

8

https://www.usnews.com/news/best-states/pennsylvania/articles/2020-04-29/pennsylvania-adds-479-covid-19deaths-as-total-tops-2-000

7

13.

Petitioners are likely to succeed on the merits.
a.

Respondents have grossly exceeded their police powers, which

only permit isolation and quarantine of persons, not businesses or entities.
For isolation persons must be infected with, susceptible to the disease or
persons who may spread the disease to others, and for quarantine the person
must have been exposed to the disease. In neither case have Respondents
provided such evidence pertaining to Petitioners or any businesses or entities
subject to the Executive Order. Further, such persons must be afforded their
right to due process to challenge the state action before it occurs, if the
persons will not voluntarily comply; no such rights were afforded here. The
Executive Order cannot withstand the test in Lawton v. Steele, 152 U.S. 133
(1894), which is used by this Court to determine the constitutionality of state
police powers.
b.

Petitioners have had their property taken without just

compensation in violation of U.S. Const. amend V as set forth in Lucas v. S.C.
Coastal Council, 505 U.S. 1003 (1992), and have been deprived of their right
to liberty and property without due process of law as guaranteed by the U.S.
Const. amend. V, IV, as set forth in Fuentes v. Shevin, 407 U.S. 67 (1972),
Mathews v. Eldridge, 424 U.S. 319 (1976), and Hodel v. Va. Surface Mining &
Reclamation Ass’n, 452 U.S. 264 (1981); and the right to judicial review per
Lawton, supra, and in Chamber of Commerce of the United States v. Reich, 74
F.3d 1322 (1996).

8

c.

The Executive Order, List and waiver process are a case study

in arbitrary and capricious state actions and thus should be struck down
pursuant to Motor Vehicle Mfrs. Ass'n v. State Farm Mut. Auto. Ins. Co., 463
U.S. 29 (1983) and Sterling v. Constantin, 287 U.S. 378 (1932). The Executive
Order, List and waiver process are patently arbitrary and lack rationality
and thus violate Petitioners’ rights to equal protection guaranteed by the
U.S. Const. amend. XIV pursuant to McGowan v. Maryland, 366 U.S. 420
(1961), New Orleans v. Dukes, 427 U.S. 297 (1976), and Euclid v. Ambler
Realty Co., 272 U.S. 365 (1926). The denial of judicial review and the
arbitrariness of the List and waiver process and the fact that many
businesses may not survive the Executive Order is of serious concern to the
three justices of the Pennsylvania Supreme Court who signed onto the
Concurring and Dissenting Opinion.
d.

The Executive Order, in tandem with the Governor’s Stay-At-

Home Order, prohibit all Pennsylvania businesses and entities on the nonlife-sustaining List from exercising their speech and assembly rights at all
other non-life-sustaining businesses and entities in addition to their own; and
due to the Stay-At-Home Order anywhere in any county still subject to that
order. Further, the Governor’s Plan will move twenty-four counties on May 8,
2020 from the red to the yellow zone. In the red zone, which will pertain to
forty-three counties, all assemblies will be prohibited. In the yellow zone,
assemblies will be limited to no more than twenty-five persons. Thus, the

9

rights to speech and assembly will continue to be either completely prohibited
or severely restricted in certain physical locations, which include massive
swaths of the geography of Pennsylvania and as such violates the U.S. Const.
amend. I pursuant to Citizens United v. FEC, 558 U.S. 310 and Hague v.
Comm. for Indus. Org., 307 U.S. 496 (1939).
14.

Petitioners are likely to suffer irreparable harm in the absence of

preliminary relief. Petitioners are required to forgo their rights to liberty, property,
equal protection, speech and assembly guaranteed by the U.S. Const. amends. I, V
and XIV:
The loss of freedoms guaranteed by U.S. Const. amend. I, for even minimal
periods of time, unquestionably constitutes irreparable injury for purposes of
granting a preliminary injunction.
Elrod v. Burns, 427 U.S. 347, 349, (1976).
15.

Petitioners have also suffered severe financial harm. See, e.g., Doran v.

Salem Inn, Inc., 422 U.S. 922, 931-32 (1975) (respondents were entitled to
preliminary relief because “a substantial loss of business and perhaps even
bankruptcy” would result from waiting until they obtained a final judgment). If this
Court waits until final judgment, Petitioners, Declarants and tens of thousands of
other Pennsylvania businesses could be insolvent, bankrupt, or permanently closed
and lost. This would result in the complete destruction of the property rights of the
owners, the places of employment for their workers and the products and services
they produce for their customers. Furthermore, even if the Governor ultimately
reopens the counties in which Petitioners’ businesses are located, and assuming

10

they are still in business, the Governor can just as easily shut them down again, as
he has declared. See paragraph 5 (e) supra.
16.

The balance of the equities tip in Petitioners’ favor. In an action

without any historical precedent, without lawful statutory basis, and in violation of
the U.S. Constitution, the Governor issued an Executive Order that has completely
deprived Petitioners, Declarants and tens of thousands of businesses on the nonlife-sustaining List of their right to operate their businesses and entities now for
over a month and a half and continuing indefinitely for those in the red zone, using
a standard for determination which businesses can remain open and which must be
closed that does not exist in law and was fashioned out of whole cloth by the
Governor. The Governor issued his Executive Order without identifying any
communicable disease let alone an outbreak of one at the places of businesses closed
by it and based upon scientific projections about the death rate of this disease that
were staggeringly wrong.9 The Governor set up a waiver process that has been
characterized as arbitrary and capricious by the public at large, has caused concern
among the Pennsylvania Supreme Court justices in their Concurring and
Dissenting Opinion and is now subject to audit by the Pennsylvania Auditor
General, all while the Governor and now the lower court’s order denies businesses
and entities the right to judicial review. Further, based upon actual evidence,
COVID-19 is a mild illness like the flu for the overwhelming majority of people, but
can threaten serious harm or death to the elderly and those with underlying health

9

https://www.nationalreview.com/corner/coronavirus-pandemic-projection-models-proving-unreliable/

11

conditions, including those with respiratory ailments and/or co-morbidities. Thus,
according to the world renowned epidemiologist, Professor Johan Giesecke, the
correct policy would have been to protect the elderly and the infirm, particularly in
nursing homes which Respondents are responsible to regulate to ensure the health
and safety of the residents there, and to allow the disease to have spread through
the population so that herd immunity could work the way it has for millennia. The
overwhelming majority of Pennsylvanians have or will have no serious health
consequence as a result of this mild illness. In fact, by putting people under
shutdown and lockdown, the Governor is harming their health by weakening their
immune systems, which they need to ward off COVID-19 and more dangerous
communicable diseases. The Executive Order and Stay-At-Home orders are
delaying the work of herd immunity which is important to protect the overwhelming
majority of the American people from contracting infectious diseases. Lastly,
through his reopening, the Governor is admitting that a more regional response
based upon the data for that region would have been more reasonable, rational and
tailored; however, Petitioners do not agree the Governor’s Plan is in fact reasonably
necessary, in the public interest and not duly burdensome and continue to claim
and argue the Executive Order should be stayed and then struck down.
17.

An injunction is in the public interest. The public has been and

continues to be greatly harmed by the Executive Order due to the severe economic
damage it is causing the Pennsylvania economy as more fully described in the
Application to Stay, in the Petition for Writ of Certiorari and in the statements by

12

the Declarants. Further, according to the reports cited by the lower court, the people
have largely voluntarily complied with social distancing and other Centers for
Disease Control and Prevention (CDC) guidelines and recommendations and will
likely continue to do so if the enforcement of the Executive Order is stayed. Further,
Pennsylvanians can determine for themselves if they wish to frequent a business
that is open but is not employing COVID-19 precautions. Businesses that do not
comply with COVID-19 precautions may suffer a loss in customers and revenues.
Furthermore, Petitioners and Declarants are ready, willing and able to voluntarily
employ the COVID-19 precautions recommended by the Respondents. In short,
people and businesses can self-regulate, as they have done for millennia, in the face
of a viral illness, without resort to massive, statewide shutdowns and lockdowns of
businesses and persons done apparently at the whim of the Executive and based
upon scientific projections which were staggeringly wrong. Furthermore, the death
count calculated by the Secretary of Health that has been used to support the need
for these sweeping, all-encompassing and unprecedented Executive Order and StayAt-Home orders has been seriously questioned by the inter alia the public, the
media, members of the Pennsylvania General Assembly and Pennsylvania’s county
coroners, so much that Secretary Levine recently reduced the death count by two
hundred deaths.10 Prior thereto she had added “probable” deaths-related to COVID19 to the death count even though no COVID-19 test was administered, let alone
the deceased actually having tested positive for it, in those cases. After that decision

10

https://www.inquirer.com/health/coronavirus/spl/pennsylvania-death-count-changes-confusion-coroanvirus20200423.html

13

sparked criticism, she removed those two hundred deaths from the count adding
further confusion and criticism.
By not having to spend so much time and taxpayer resources on the
Executive Order, the Stay-At-Home Order and now the Plan, the Respondents could
have and still can use their time and taxpayer-provided resources to address the
actual problem presented by COVID-19, which is the danger it poses to the elderly,
particularly those living in the nursing homes, and those with pre-existing
respiratory ailments and/or co-morbidities. Respondents can use the actual legal
tools they have pursuant to the Disease Act to isolate and quarantine the elderly
currently residing in nursing homes who have been infected or have likely been
exposed. That’s what will help save the lives of the small number of Pennsylvanians
who are at risk of serious harm or death from this otherwise mild virus. These are
examples of reasonable, tailored and rational responses to COVID-19. Instead the
Respondents, including particularly Secretary Levine, have used their power to
possibly exacerbate the number of deaths in Pennsylvania.
According to media reports, “On March 18, Pennsylvania Health Secretary
Dr. Rachel Levine directed licensed long-term care facilities to continue admitting
new patients, including those discharged from hospitals but unable to go home, and
to readmit current patients after hospital stays. ‘This may include stable patients
who have had the COVID-19 virus,’ according to a copy of the guidelines.”11 The
Secretary of Health’s guidelines to nursing homes is still posted on the Department

11

https://www.buckscountycouriertimes.com/news/20200501/states-ordered-nursing-homes-to-take-covid-19residents-thousands-died-how-it-happened

14

of Health’s website.12 This decision by the Secretary of Health may have proved
deadly to many nursing home residents because the virus spread like wildfire in
Pennsylvania’s nursing homes. The American Health Care Association said at the
time that that directive put “frail and older adults who reside in nursing homes at
risk” and would “result in more people going to the hospital and more deaths.” See
FN 9. According to the article, in Pennsylvania, about 65% of coronavirus-deaths
were of nursing-home residents, and in counties in the hardest hit southeastern
part of the state, long-term care-residents account for as much as 80% of county
deaths. The Secretary should have been using her powers under the Disease Act to
isolate and quarantine those nursing home residents, who have had COVID-19,
from all other residents of those homes. On March 28, 2020, the Secretary
announced there were approximately 3400 intensive care beds in Pennsylvania and
that 40% of them were empty.13 She could at least fill up those beds with the infirm
elderly who have or have had COVID 19 instead of compelling nursing homes,
which are apparently incubators of the virus, to take in COVID-19 infected or
recently infected residents.
Furthermore, the Secretary stopped regular inspections of Pennsylvania
nursing homes during the COVID-19 pandemic.14 So, how would she know if

12

https://www.health.pa.gov/topics/Documents/Diseases%20and%20Conditions/COVID19%20Interim%20Nursing%20Facility%20Guidance.pdf
13
https://www.abc27.com/news/health/coronavirus/hospital-beds-in-pa-are-beginning-to-fill-up-as-virus-spreads/
14
https://www.wpxi.com/news/investigates/11-investigates-still-no-answers-pa-health-secretary-about-nursinghome-concerns/CUR4SEM7QVED7D6YNAWAHM5WCM/

15

nursing homes were isolating the infected or recently infected within their own
facilities?
The public health concern presented by COVID-19 is focused in
Pennsylvanian’s nursing homes and with the infirm, elderly and those with preexisting conditions and co-morbidities. The public’s interest lies there in the
Respondents’ focusing their lawful efforts under the Disease Act to prevent the
spread of COVID-19 to those individuals infected; not in sweeping, broad, statewide
Executive Orders closing tens of thousands of Pennsylvania businesses where
Respondents identified no infection or outbreak and which devastated the
Pennsylvania economy or in issuing a Stay-At-Home order that locked down the
healthy and all demographic groups including the majority of Pennsylvanians for
whom COVID-19 is similar to a mild flu. The Executive Order and Stay-At-Home
orders constituted the single, worst deprivation of the constitutional rights of the
largest number of the people of Pennsylvania in the history of the Commonwealth
and did so based upon staggeringly inaccurate projections of morbidity concerning a
viral illness that is seriously harmful to an extremely small percentage of
Pennsylvanians and has ravaged the economy in way that we have not experienced
since the Great Depression.
WHEREFORE, Petitioners respectfully request that this Court stay and/or
enjoin the enforcement of the Executive Order pursuant to this Court’s authority as

16

set forth in inter alia the All Writs Act, 28 U.S.C. § 1651, pending review and
disposition of Petitioners’ Petition for Writ of Certiorari.

Respectfully submitted,
/s/ Marc A. Scaringi
Marc A. Scaringi, Esquire
Pa Supreme Court ID No. 88346
Attorney for Petitioners
Scaringi Law
2000 Linglestown Road, Suite 106
Harrisburg, PA 17110
marc@scaringilaw.com
717-657-7770 (o)
717-657-7797 (f)
Date: May 4, 2020

17

18

EXHIBIT
19

20

21

EXHIBIT B
22

18
unsworn falsification to authorities

May 3, 2020
23

EXHIBIT C
24

25

26

EXHIBIT D
27

28

29

EXHIBIT E
30

STATEMENT OF KRAIC NACE
I am thePresident ofDetailed Attention,Inc. in Duncannon, Perry County, PA. Our
company has several divisions.
JF Designs, a retail and special events florist and d6corcompany, is closed because

Govemor Tom

Wolfs

of

business shutdown order. JUKE BOX HITS Entertainment Services.

which provides MC, DJ, and Production Services and EventRentals, is also closed, and forthe
same

rq$on. I have already lost $10,000 because of the closure of JUKE BOXHITS.

Duncannon Rentals is a property management and investment business.

All ofthe commercial

clients of Duncannon Rentals are closed because ofthe gove,rror's order, aad

I

am very

concerned about rent revenues from those clients and from the company's residential tenants.

I'm having difficultypaying my bills. I am not eligible for a PPP loan.
I also volunteer as the Chief of our local ambulance sen ice, and due to fundraiser
shutdowns and decreased call volumes Q5% in March and

50o/o

in April), we have lost, already,

close to $20,000 in critical reyenue.

Additionally, my wife and two friends run a biannual local consignment sale which has
already been pushed back to May from March. They are now concemed that they may not be
able tohave it at all since Perry County has no definitivetime to "reopen."

Perry County, incidentally, is a mostly

nral county in Central

Pennsylv'ania with a

population of about 43,600.t PennLive has reported that as of May 3,2020 there have been 34
coronavirus cases and one death in Perry County-2

I
u

h

tlp : rwwrv.pern'co.org,'Pa gcs/Welc om e.a spx

https://wu,w.health.pa.gov/topicsldiseascrcoronavirus/PaseslCases.aspx

31

VERIFICATION
I hereby verify that the facts set forth in the foregoing
the best of my knowledge. infomration, and belief.
subject to thepenalties

Nday

of l8

I

Pa.C.S. $ 4904 relating to

3,2420

32

are true and correct to
false statements herein are

falsifi cation to authorities.

IN THE SUPREME COURT OF THE UNITED STATES

FRIENDS OF DANNY DEVITO,
KATHY GREGORY,
B&J LAUNDRY, LLC
BLUEBERRY HILL PUBLIC GOLF
COURSE & LOUNGE, and
CALEDONIA LAND COMPANY,
Petitioners

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

v.
TOM WOLF, GOVERNOR
AND RACHEL LEVINE,
SECRETARY OF PA.
DEPARTMENT OF
HEALTH,
Respondents

No. 19A1032
SUPPLEMENTAL BRIEF IN
SUPPORT OF APPLICATION
TO STAY

CERTIFICATE OF SERVICE
I, Deborah A. Black, Paralegal for Scaringi Law, do hereby certify that I
served a true and correct copy of a Supplemental Brief in Support of
Application to Stay in the above-captioned action, upon the following via
electronic mail to:

J. Bart DeLone
Chief Deputy Attorney General
Pennsylvania Office of Attorney General
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
jdelone@attorneygeneral.gov

33

Keli Marie Neary, Esquire
Executive Deputy Attorney General
PA Attorney Civil Law Division
Pennsylvania Office of Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
kneary@attorneygeneral.gov

Karen Masico Romano, Esquire
Chief Deputy Attorney General
Pennsylvania Office of Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
kromano@attorneygeneral.gov

Gregory George Schwab, Esquire
Pennsylvania Office of General Counsel
Governor's Office of General Counsel
333 Market St 17th Fl.
Harrisburg, PA 17126-0333
grschwab@pal.gov

Date: May 4, 2020

/s/ Deborah A. Black____________
Deborah A. Black, Paralegal
For Marc A. Scaringi, Esquire and

34

